No. 20-1009
IN THE

Supreme Court of the United States

________________
DAVID SHINN, ET AL.,
Petitioners,
v.
DAVID MARTINEZ RAMIREZ AND BARRY LEE JONES,
Respondents.
________________
ON WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
________________
JOINT APPLICATION FOR LEAVE TO EXCEED WORD LIMITS FOR
RESPONDENTS’ MERITS BRIEF AND PETITIONERS’ REPLY BRIEF
________________
Lacey Stover Gard
Chief Counsel
Counsel of Record
Office of the Arizona
Attorney General
Capital Litigation Section
400 W. Congress, Bldg. S-215
Tucson, AZ 85701-1367
(520) 628-6250
lacey.gard@azag.gov
Counsel for Petitioners

Robert M. Loeb
Counsel of Record
Orrick, Herrington & Sutcliffe LLP
1152 15th Street NW
Washington, D.C. 20005
rloeb@orrick.com
(202) 339-8475
Jon M. Sands
Federal Public Defender
District of Arizona
Timothy M. Gabrielsen
Cary Sandman
Assistant Federal Public Defenders
407 West Congress Street
Suite 501
Tucson, Arizona 85701
Tim_gabrielsen@fd.org
Counsel for Respondents

Pursuant to Supreme Court Rules 22 and 33.1(d), the parties jointly and
respectfully request that they be granted leave to exceed the word limits for
Respondents’ brief on the merits and Petitioners’ reply brief. Respondents, David
Martinez Ramirez and Barry Lee Jones, request leave to file a brief on the merits
not to exceed 15,000 words. Petitioners, David Shinn (Director of the Arizona
Department of Corrections, Rehabilitation, and Reentry) and Walter Hensley
(Warden of the Arizona State Prison Complex-Eyman), request leave to file a reply
brief not to exceed 7,000 words.
1.

Respondents are two death-sentenced prisoners in Arizona who are

challenging their state convictions and sentences by a writ of habeas corpus in
federal court. Both cases have lengthy and complex individual histories. The
United States Court of Appeals for the Ninth Circuit issued separate opinions in
each.
2.

When Petitioners filed a petition for a writ of certiorari requesting this

Court’s review of those opinions, they invoked Rule 12.4 of this Court to consolidate
the cases into a single petition.
3.

On May 17, 2021, this Court granted that petition, and the cases

remain consolidated.
4.

A modest expansion of the word limit for Respondents’ brief on the

merits is appropriate so that Respondents may thoroughly present the issues in
each case and thereby aid the Court’s review. Respondents will be addressing in a
single brief two separate capital cases with lengthy individual histories and unique,

1

complex legal issues. Respondents therefore respectfully request leave to file a
merits brief not to exceed 15,000 words—2,000 words more than the 13,000-word
limit imposed by Rule 33.1(g).
5.

A modest corresponding expansion of the word limit is also appropriate

for Petitioners’ reply brief, for similar reasons. Accordingly, Petitioners respectfully
request to file a reply brief not to exceed 7,000 words—1,000 words more than the
6,000-word limit imposed by Rule 33.1(g).
6.

As Rule 33.1(d) requires, this application is being submitted more than

15 days before the date on which Respondents’ merits brief is due, which is
September 13, 2021, and Petitioners’ reply brief is due, which is October 13, 2021.
Respectfully submitted,

Date: July 14, 2021

/s/ Robert M. Loeb
Robert M. Loeb
Counsel of Record for Respondents
Respectfully submitted,
/s/ Lacey Stover Gard
Lacey Stover Gard
Counsel of Record for Petitioners

2

